CERTIFICATE OF COMPLIANCE

No.

Richard E. Boggs,
Petitioner
v.
UNITED STATES OF AMERICA, INTERNAL
REVENUE SERVICE, PETER RAE (coworkers, et al...
as individuals)
Respondent(s)
As required by Supreme Court Rule 33.1(h), I certify that the petition for a
writ of certiorari contains 2939 words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on 26 December 2020.

T

Richard E. Boggs Pro Se
All Rights Reserved

